BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
Nos. 19-251 & 19-255
AMERICANS FOR PROSPERITY FOUNDATION,

Petitioner,
V.

XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA,

Respondent.
THOMAS MORE LAW CENTER,

Petitioner
V.

XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of the Nonprofit Alliance
Foundation, People for the Ethical Treatment of
Animals, Association of Fundraising Professionals, and
123 Nonprofit Organizations Listed in Appendix as
Amici Curiae in Support of Petitioners contains 7,976
words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

' 8790 Governor's Hill Drive

Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

Washington, DC 20005

Executed on March 1, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

\J

